HHS/OIG, Audit -"Review of Medicare Prescription Drug, Improvement, and Modernization Act
Modifications To Calendar Year 2004 Proposal - Health Alliance Plan of Michigan, Detroit, Michigan,"(A-05-05-0039)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Prescription Drug, Improvement, and Modernization Act Modifications To Calendar
Year 2004 Proposal - Health Alliance Plan of Michigan, Detroit, Michigan," (A-05-05-00039)
August 8, 2005
Complete
Text of Report is available in PDF format (343 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the Health Alliances Plan
of Michigan's use of its Medicare Prescription Drug, Improvement, and Modernization Act (MMA) payment
increases was adequately supported and allowable under MMA.  We determined that the increased
MMA payments were used to enhance beneficiary access to providers and to increase the drug benefits.  With
MMA funds provided by Health Alliance, Henry Ford enhanced beneficiary access by opening up seven new
sites and enrollment increased by approximately 3,000 new Medicare members for 2004. Additionally,
the drug coverage limit was increased from $200 to $400 for 2004. Therefore, this report contains no
recommendations for corrective action.